App. 1
APPENDIX A
DISTRICT OF COLUMBIA
COURT OF APPEALS
No. 18-CV-309
Rosanne L. Woodroof, Appellant,
v.
Joseph F. Cunningham, et al., Appellees.
Appeal from the Superior Court
of the District of Columbia
(CAM-6474-13)
(Hon. Brian F. Holeman, Trial Judge)
(Submitted September 16,2019 Decided October 3,2019)
Before Easterly and McLeese, Associate Judges,
and Nebeker, Senior Judge.
MEMORANDUM OPINION AND JUDGMENT
Per Curiam: Appellant Rosanne L. Woodroof ap­
peals the Superior Court’s dismissal with prejudice of
her complaint against the Estate of Joseph F. Cunning­
ham and Cunningham & Associates, PLC for legal
malpractice. Specifically, appellant argues that the
trial court erred in two ways: (1) by granting appellee’s
motion to dismiss with prejudice for appellant’s failure
to act with reasonable diligence to arbitrate her claims;
and (2) by denying as moot both her motion to appoint
an arbitrator pursuant to Section 5 of the Federal Ar­
bitration Act and her motion to disqualify and remove

App. 2
Cunningham’s named arbitrator. We disagree and af­
firm.
I.
This case involves a lengthy dispute between the
parties. In December 2008, appellant retained Joseph
Cunningham to represent her in a lawsuit against her
condominium board. As part of that relationship, they
both signed a written retainer agreement, which incor­
porated an arbitration agreement. The arbitration
agreement contained the following provisions: (1) “any
dispute as to legal malpractice . . . will be determined
by submission to arbitration as provided by District of
Columbia law;” (2) “[e]ach party shall select an arbitra­
tor . . . within thirty days, and a third arbitrator . . .
shall be selected by the arbitrators appointed by the
parties within thirty days thereafter;” and (3) “[a]
claim shall be waived and forever barred if . . . the
claimant fails to pursue the arbitration claim in ac­
cordance with the procedures herein with reasonable
diligence.” Their relationship soured, and in Septem­
ber of 2013, appellant filed suit against Joseph Cun­
ningham and Cunningham & Associates, PLC for legal
malpractice. The case was stayed for arbitration. As re­
quired by the arbitration agreement, Joseph Cunning­
ham named his arbitrator within the 30-day window.
Appellant did not. Instead, she appealed the trial
judge’s order staying the case for arbitration. This
court affirmed that order in October of 2016.
Rather than proceeding with the contractually
agreed upon method of arbitration, appellant spent the

App. 3
next year and a half seeking various ways to alter the
arbitration process. In response, the defense filed a mo­
tion to dismiss. By the June 30, 2017 status hearing,
appellant still had not named her arbitrator, as re­
quired by her arbitration agreement. The trial court
ordered her to name an arbitrator by July 30, 2017, or
her case would be dismissed for want of prosecution.
On July 28,2017, nearly four years after filing her suit
for legal malpractice, appellant finally named her ar­
bitrator. During the nearly four years it took for appel­
lant to do so, Joseph Cunningham passed away; his
estate was substituted as a party.
After appellant named her arbitrator, the arbitra­
tion process finally began. Appellant’s arbitrator and
appellee’s arbitrator worked together to find a third,
neutral arbitrator, as required by the arbitration
agreement. They were successful. By September of
2017, the three-party arbitration panel had compiled a
set of conditions and rules for the parties to approve.
Appellee approved the conditions and rules; appellant
did not. Over the next month, appellant repeatedly re­
fused both to agree to the panel’s conditions and rules
and to pay her portion of the retainer required to pay
the neutral arbitrator. Unable to proceed because of
appellant’s refusals, the neutral arbitrator resigned.
One week later, appellee re-filed a motion to dis­
miss. Appellant responded, reiterating arguments the
trial court previously rejected. In addition, she filed a
motion to appoint a neutral arbitrator and disqualify
appellee’s arbitrator, a motion for leave to file an
amended complaint, a request for sanctions, and a

App. 4
motion to make a powerpoint presentation to the trial
court on these issues. On February 16, 2018, the trial
court held a hearing on these issues as well as the
pending motion to dismiss. At the hearing, the trial
court denied appellant’s motion for leave to file an
amended complaint, denied her request for sanctions,
and denied her motion to make a powerpoint. The trial
court also granted appellee’s motion to dismiss and de­
nied as moot appellant’s motions to appoint a neutral
arbitrator and to disqualify appellee’s arbitrator. Ap­
pellant appealed.
II.
First, appellant contends the trial court erred in
dismissing her complaint for three reasons: (1) no evi­
dence supported the trial court’s decision; (2) no artic­
ulated explanation of the factors surrounding the trial
court’s decision was given; and (3) none of the pertinent
factors support the trial court’s dismissal.
Super. Ct. Civ. R. 41(b) authorizes the trial
court to involuntarily dismiss an action “[f]or
failure of the plaintiff to prosecute or to com­
ply with these rules or any order of court.” The
decision to impose such a sanction is left to the
discretion of the trial court, to be overturned
only where the court “imposfes] a penalty too
strict or unnecessary under the circum­
stances.”
Solomon v. Fairfax Vill. Condo. TV Unit Owner’s Ass ‘n,
621 A.2d 378,379 (D.C. 1993) (quoting Braxton v. How­
ard Univ., 472 A.2d 1363, 1365 (D.C. 1984)). “Among

App. 5
the factors which the trial court should consider are:
(1) the nature of the party’s conduct, including whether
it was willful; (2) the length of any delay in complying
with the court’s order; (3) the reasons for the delay; and
(4) any prejudice to the opposing party.” District of Co­
lumbia v. Serafin, 617 A.2d 516, 519 (D.C. 1992). Dis­
missal is warranted only “upon some showing of willful
and deliberate delay by the plaintiff,” and a determina­
tion that “appellee was prejudiced by appellant’s de­
lay.” Durham v. District of Columbia, 494 A.2d 1346,
1351 (D.C. 1988). Against that standard, we consider
whether the trial court abused its discretion in grant­
ing dismissal with prejudice under Rule 41(b).
During the February 16, 2018 hearing, the trial
court heard argument from both parties and consid­
ered the record. Then, ruling from the bench, the trial
court made the following findings: (1) appellant acted
to delay and obstruct the proceedings that would have
brought the case to resolution, initially by failing to
name an arbitrator and then by bringing about termi­
nation of the arbitration process; (2) appellant’s ac­
tions caused the case to proceed for nearly five years
without resolution; (3) appellant made numerous friv­
olous filings, including those disputing the validity of
the arbitration agreement, which both the trial court
and this court have held to be valid; and (4) appellant’s
dilatory tactics prejudiced appellee because their pri­
mary witness, Joseph Cunningham, passed away dur­
ing the pendency of the litigation. Thus, the trial court
granted appellee’s motion to dismiss and dismissed the

App. 6
complaint with prejudice. We cannot say that the trial
court erred in reaching its conclusions. It did not.
Despite appellant’s contentions to the contrary,
the record clearly shows that the trial court dismissed
her complaint with prejudice because she intention­
ally, willfully delayed the arbitration proceedings,
thereby irreparably prejudicing the defense. The trial
court’s decision is supported by ample evidence and
clearly articulated findings. The trial court did not
abuse its discretion in dismissing appellant’s com­
plaint.
III.
Next, appellant argues the trial court erred in
denying as moot both her motion to appoint a neutral
arbitrator under Section 5 of the Federal Arbitration
Act and her motion to disqualify and remove appellee’s
named arbitrator.
We review the trial court’s denial of a motion as
moot for an abuse of discretion. See Copeland v. Cohen,
905 A.2d 144,146 n.3 (D.C. 2006).
“[W]hen the issues presented are no longer ‘live’ or
the parties lack ‘a legally cognizable interest in the
outcome,’ a case is moot.” Settlemire v. District of Co­
lumbia Office of Emp. Appeals, 898 A.2d 902, 904-05
(D.C. 2006). When the trial court dismissed appellant’s
complaint with prejudice, appellant lost any legally
cognizable interest in the outcome of both her motion
to appoint a neutral arbitrator and her motion to

App. 7
disqualify and remove appellee’s named arbitrator;
both motions became moot. The trial court did not err,
therefore, in dismissing either motion as moot.
For the foregoing reasons, the decision of the trial
court is hereby
Affirmed.
ENTERED BY DIRECTION
OF THE COURT:
/s/ Julio A. Castillo
JULIO A. CASTILLO
Clerk of the Court
Copies to:
Honorable Brian F. Holeman
Director, Civil Division
Copies e-served to:
Rosanne L. Woodroof
J. Jonathan Schraub, Esquire
Madeline Kramer, Esquire

App. 8
APPENDIX B
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
CIVIL DIVISION
ROSANNE WOODROOF,
Case No. 2013
CA 006474 M
V.
Calendar 12
JOSEPH F. CUNNINGHAM, : Judge
Brian F. Holeman
Defendants.
Plaintiff,

OMNIBUS ORDER
(Filed Dec. 12, 2018)
This matter comes before the Court upon consid­
eration of: Defendant’s Motion for Entry of Written Or­
der of Judgment, filed on March 22, 2018; Defendant’s
Motion for Leave to File Reply, filed on April 4, 2018;
and Plaintiff’s Motion for Leave to File Sur-Reply, filed
on April 8, 2018.
I.

PROCEDURAL HISTORY

The instant matter arises from the Complaint for
Legal Malpractice, filed on September 24, 2013. On
June 26,2014, Defendants filed the Motion to Stay and
Arbitrate, requesting that the Court stay the case and
order the parties to engage in binding arbitration, pur­
suant to the terms of the Retainer Agreement and the
Arbitration Agreement entered between the parties.

App. 9
(Def.’s Mem. P. & A. in Support of Mot. To Stay at 1-2,
Ex. 1.) The Court’s Order of July 9, 2014 granted the
Motion to Stay and Arbitrate. (Order, July 9, 2014 at
3.)
On July 19, 2014, Plaintiff filed the Motion for
Consideration. On July 30, 2014, the Court denied the
Motion for Consideration. On August 22, 2014, Plain­
tiff filed the Notice of Appeal. The issue on appeal was,
inter alia, whether the Trial Court erred by ordering
the parties to arbitrate the legal malpractice action.
(Ct. of Appeals Order at 4,25.) On January 4,2017, the
Court of Appeals affirmed the Trial Court’s Order of
July 9, 2014. (Id. at 35.)
On June 30, 2017, the Court convened the Status
Hearing. The Court held in abeyance Defendants’ Mo­
tion to Dismiss, and ordered that Plaintiff select an ar­
bitrator by July 30, 2017.
On August 4, 2017, the Court convened the Status
Hearing. The Court was apprised that Plaintiff com­
plied with the Court’s order issued on June 30, 2017,
and selected an arbitrator. On October 9,2017, Defend­
ants filed Defendants’ Motion to Dismiss.
On February 16,2018, the Court convened the Sta­
tus Hearing. The Court found that, following the selec­
tion of arbitrators, Plaintiff conducted herself such
that the arbitration was terminated or in such a way
that she prevented the arbitrators from moving for­
ward. (See Mot. to Dismiss, Oct. 9, 2017, at Ex. D.) The
Court ruled, inter alia, on Defendants’ Motion to

App. 10
Dismiss and dismissed the case with prejudice. On
March 16, 2018, Plaintiff filed the Notice of Appeal.
II.

THE APPLICABLE LAW

The Superior Court Rules of Civil Procedure, Rule
58, governs entry of judgment. It reads, in pertinent
part:
(a) Separate Document. Every judgment and
amended judgment must be set out in a sepa­
rate document, but a separate document is not
required for an order disposing of a motion:
(1) for judgment under Rule 50(b);
(2) to amend or make additional find­
ings under Rule 52(b);
(3) for attorney’s fees under Rule 54;
(4) for a new trial, or to alter or amend
the judgment, under Rule 59; or
(5) for relief under Rule 60.

(c) Time of Entry. For purposes of these rules,
judgment is entered at the following times:
(1) if a separate document is not re­
quired, when the judgment is entered in
the civil docket under Rule 79(a); or
(2) if a separate document is required,
when the judgment is entered in the civil
docket under Rule 19(a) and the earlier of
these events occurs:

App. 11
(A) it is set out in a separate docu­
ment; or
(B) 150 days have run from the en­
try in the civil docket.
(d) Request for Entry. A party may request
that judgment be set out in a separate docu­
ment as required by Rule 58(a).
Rule 12-1 governs filings with the Court. It states,
in pertinent part:
(g) Reply. Within 7 calendar days after service
of the opposing statement, the moving party
may file and serve a statement of points and
authorities in reply to the following types of
motions only:
(1)

motions for summary judgment;

(2) motions to dismiss for failure to
state a claim;
(3) motions to strike expert testimony;
and
(4) motions for judgment on the plead­
ings.
The Supplement to the General Order further gov­
erns filings with the Court. It reads, in pertinent part,
as follows:
Page Limits, Replies and Memoranda of
Law: When any filing is over fifteen (15)
pages in total, a paper copy must be mailed to
Chambers at the above address either
through the postal service or by delivering a

App. 12
copy to the Inter-Office Mail Slot located on
the first floor of the Moultrie Building, next to
the Information offices. Replies to opposi­
tions are prohibited without Court. Memo­
randa of law that exceed ten (10) pages in
length are discouraged, and memoranda of
law that exceed twenty (20) pages are pro­
hibited without leave of Court.
III. DEFENDANTS’ MOTION FOR LEAVE TO
FILE REPLY
On April 4, 2018, Defendants filed the instant Mo­
tion. Defendants request leave to file the Reply to
Plaintiff’s Opposition to Defendants’ Rule 58 Motion
for Entry of Written Judgment (the “Reply”), attached
as Exhibit A.
The Motion is the procedurally appropriate means
to obtain relief, as the proposed Reply does not fall
within the scope of Rule 12-I(g). However, the proposed
Reply does not add further substance to Defendants’
Motion for Entry of Written Order of Judgment.
IV. PLAINTIFF’S MOTION FOR LEAVE TO
FILE SUR-REPLY
On April 8,2018, Plaintiff filed the instant Motion.
Plaintiff argues that “[t]he decision whether to grant
or deny leave to file a sur-reply is committed to the
sound discretion of the court.” (Mot. at 1.)

App. 13
The Superior Court Rules of Civil Procedure does
not mention the right to file a surreply. There is no ba­
sis for grant of the instant Motion.

V.

DEFENDANTS’ MOTION FOR ENTRY OF
WRITTEN ORDER OF JUDGMENT

On March 22, 2018, Defendants filed the instant
Motion. Defendants argue that the Court “maintains
jurisdiction to enter a written order memorializing the
Court’s rulings from the February 16,2018 hearing de­
spite Plaintiff’s filing of a notice of appeal.” (Mot. at
'll 3.) Defendants represent that “[t]he Arlington Com­
missioner of Accounts will not close the Estate of Jo­
seph Cunningham, Deceased without a written order
from this Court identifying that judgment was entered
in favor of Defendants, and Plaintiff’s claims (and this
action) were dismissed with prejudice.” (Mem. P. & A.
at 1.) Defendants assert that “[a] written order. . . does
not result in the revocation or alteration of the Court’s
rulings or the judgment noticed for appeal by Plaintiff.”
(Mot. at 'll 4.)
On April 1, 2018, Plaintiff filed Plaintiff’s Opposi­
tion to Defendants’ Motion for Entry of Written Order
of Judgment. Plaintiff argues that “[t]his Court lacks
jurisdiction to alter, amend, or otherwise amend an or­
der where, as here, an appeal of the order has been per­
fected.” (Opp’n. at f 1.) Plaintiff further argues that
the instant Motion is untimely, and that “Defendants
baldly describe their plan to circumvent Plaintiff’s
right to appeal” as “Defendants admit that they are

App. 14
attempting to close the estate of one of the defendants,
dissipating the assets available to satisfy a judgment
in Plaintiff’s favor.” (Id. at M 3-4.) Plaintiff asserts
that “Defendants’ motion is also an obvious attempt to
have this Court rewrite the record.” (Id. at % 5.)
The Court finds the arguments made in opposition
unavailing. Rule 58 gives Defendants the right to re­
quest the entry of a written order. Defendants do not
seek an amendment or alteration of the Court’s rulings
issued on February 16, 2018, under Rules 59(e) or 60.
Rather, they are seeking the entry of a written order
memorializing the Court’s decision to dismiss the in­
stant action on February 16, 2018.
WHEREFORE, it is this 12th day of December
2018, hereby
ORDERED, that Defendants’ Motion for Leave to
File Reply is DENIED; and it is further
ORDERED, that Plaintiff’s Motion for Leave to
File Sur-Reply is DENIED; and it is further
ORDERED, that Defendants’ Motion for Entry of
Written Order of Judgment is GRANTED; and it is
further
ORDERED, that the Order of Judgment is issued
concurrently herewith.
/s/ Brian F. Holeman
BRIAN F. HOLEMAN
JUDGE

App. 15
Copy e-served to:
J. Jonathan Schraub, Esquire
SANDS ANDERSON PC
1497 Chain Bridge Road, Suite 202
McLean, VA 22101
Counsel for Defendants
Copy mailed to:
Rosanne L. Woodroof
PO Box 3050
Warrenton, VA 20188

Plaintiff

App. 16
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
CIVIL DIVISION
ROSANNE WOODROOF,
Case No. 2013
CA 006474 M
v.
Calendar 12
JOSEPH F. CUNNINGHAM, : Judge
et al.,
Brian F. Holeman
Defendants.
Plaintiff,

ORDER OF JUDGMENT
(Filed Dec. 12, 2018)
Upon consideration of the Status Conference con­
vened on February 16, 2018, it is on this 12th day of
December 2018, hereby
ORDERED, that judgment is entered in favor of
Defendants Joseph F. Cunningham and Cunningham
& Associates, PLC and against Rosanne L. Woodroof;
and it is further
ORDERED, that the instant action is DIS­
MISSED WITH PREJUDICE.
/s/ Brian F. Holeman
BRIAN F. HOLEMAN
JUDGE

App. 17
Copy e-served to:
J. Jonathan Schraub, Esquire
SANDS ANDERSON PC
1497 Chain Bridge Road, Suite 202
McLean, VA 22101
Counsel for Defendants
Copy mailed to:
Rosanne L. Woodroof
PO Box 3050
Warrenton, VA 20188
Plaintiff

App. 18
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
CIVIL DIVISION
x

ROSANNE WOODROOF,
Civil Action Number

Plaintiff,

2013 CAM 6474

versus
JOSEPH CUNNINGHAM, et al.
Defendants.
x

Washington, D.C.
Friday, February 16, 2018
The above-entitled action came on for a hearing,
before the Honorable BRIAN HOLEMAN, Associate
Judge, in Courtroom Number 516.
THIS TRANSCRIPT REPRESENTS THE
PRODUCT OF AN OFFICIAL REPORTER,
ENGAGED BY THE COURT, WHO HAS
PERSONALLY CERTIFIED THAT IT REP­
RESENTS TESTIMONY AND PROCEED­
INGS OF THE CASE AS RECORDED.
APPEARANCES:
On behalf of the Plaintiff:
ROSANNE WOODROOF, Pro Se
Washington, D.C.

App. 19
On behalf of the Defendants:
JONATHAN SCHRAUB,
Esquire Washington, D.C.
Stephanie M. Austin, RPR, CRR
Official Court Reporter

(202) 879-1289
[1]

[Transcript Excerpt, Oral Rulings, pages 24-27]
[24] With all due respect to Ms. Woodroof, I mean,
she has the law completely upside down. Our motion
to dismiss simply is plain and simple. Enough is
enough is enough already. We do not have to go through
this multiple times until Ms. Woodroof is satisfied that
she has the panel that will do - that will do the arbi­
tration the way she thinks an arbitration ought to be
done.
These three arbitrators decided themselves what
the rules were going to be. I didn’t tell them. She didn’t
tell them. They decided, wrote to us and said here are
going to be the rules. She wouldn’t agree. That was the
end of it.
Judge, there’s no justification to make us start this
process all over again.
THE COURT: No, the Court agrees. And the
Court grants the motion to dismiss that was filed on
October 9, 2017.
What we have here is an effort to delay and ob­
struct the proceedings that would have brought this
case to resolution. This filing of documents that are

App. 20
completely irrelevant to the issue of arbitration or to
the issue of what is to be arbitrated the Court finds
troubling.
[25] Further, the notion that the Court, at this late
state, would be requested to grant a motion to file an
amended complaint, the facts in this case haven’t
changed over the five years that this case has been
pending. The only unfortunate circumstance here is
Mr. Cunningham, who was the lawyer, died during the
pendency of all of this.
This record is replete with multiple filings that
have absolutely nothing to do with the issues before
the Court. This Court’s prior ruling, having said simi­
lar things in prior hearings, was affirmed by the Court
of Appeals in its order of July 9th, 2014.
So this Court is not inclined to hear any further
argument concerning whether or not an arbitration is
required. It is.
This Court is not inclined to hear any further ar­
gument as to whether the arbitration process, the pro­
cess of selection was unfair. It was not.
This Court is not inclined to hear any further ar­
gument with regard to the disposition of the case fol­
lowing arbitration. It did not occur, and it did not occur
because of Ms. Woodroof’s desire, on this record, to not
go forward with the arbitration. Whether it be that her
preferences were not met or that she didn’t have the
money to the arbitrator, in this Court’s view, is beside
the point.

App. 21
[26] The fact is that arbitration was required, she
essentially conducted herself in such a way as to ter­
minate the arbitration or render it such that the arbi­
trators could not go forward with their process.
Motion to dismiss is granted, and all of the re­
maining motions, including the motion , to appoint a
neutral arbitrator, denied as moot.
Motion for leave to file a reply to defendants’ op­
position, denied as moot.
Motion for leave to file an amended complaint, de­
nied. No. I apologize. The motion for leave to file a reply
on defendants’ opposition, granted; however, that op­
position added absolutely nothing to the substantive
issue for this Court. So reply taken into account adds
nothing to the Court’s analysis to the issue before it.
Motion for leave to file an amended complaint, de­
nied.
Motion for leave to file a reply to defendants’ op­
position, granted, again, like has been stated before.
The document substantively adds nothing more
than has already been addressed and presented to
this Court. There’s the representation about proposed
amendments that are necessary, as the arbitration
panel members were confused about the scope of the
arbitration. In my view, on this record, there could not
have been any [27] confusion with the panel of arbitra­
tors. And certainly none of them were called into court
on behalf of Ms. Woodroof to support any claim that she
has made here today.

App. 22
Let me see if I’ve left anything out.
MS. WOODROOF:
THE COURT:

Excuse me.

MS. WOODROOF:
THE COURT:

Your Honor.

Your Honor.

Excuse me.

Motion for leave to file a reply brief in support of
the motion to dismiss, granted, deemed filed. Let’s see.
This was filed on October 26th. The reason for that
grant, the defendant had the right to file a reply with­
out leave of Court, and the opposition was timely filed.
I believe that I’ve covered every outstanding mo­
tion here.
The case is dismissed. The parties are excused.
Please vacate the tables so that other litigants can ap­
proach.
MR. SCHRAUB:
THE COURT:

Thank you very much.

Thank you.

MR. SCHRAUB:

Thank you very much, Your

Honor.
(Proceedings adjourned at 1:41 p.m.)

App. 23
APPENDIX C
District of Columbia
Court of Appeals
No. 18-CV-309
ROSANNE L. WOODROOF,
Appellant,
CAM6474-13

v.
JOSEPH F. CUNNINGHAM, et al.,
Appellees.

BEFORE: Easterly and McLeese, Associate Judges,
and Nebeker, Senior Judge.
ORDER
(Filed Feb. 4, 2020)
On consideration of appellant’s motion to publish
and it appearing no opposition was filed, it is
ORDERED that appellant’s motion to publish is
denied.
PER CURIAM
Copies e-served to:
Rosanne L. Woodroof
J. Jonathan Schraub, Esquire
Madelaine Kramer, Esquire
010

App. 24
District of Columbia
Court of Appeals
No. 18-CV-309
ROSANNE L. WOODROOF,
Appellant,
CAM6474-13

v.
JOSEPH F. CUNNINGHAM, et al.,
Appellees.

BEFORE: Blackbume-Rigsby, Chief Judge; Glickman,
Fisher, Thompson, Beckwith, Easterly,* McLeese,* and
Deahl, Associate Judges; Nebeker,* Senior Judge.
ORDER
(Filed Feb. 4, 2020)
On consideration of appellant’s motion for leave
to file the lodged petition for rehearing or rehearing
en banc, appellant’s motion to exceed page limit for
the lodged petition for rehearing or rehearing en banc,
appellant’s expedited motion for leave to file the lodged
amended petition for rehearing or rehearing en banc,
it is
ORDERED that appellant’s motion for leave is
granted, and the Clerk shall file appellant’s lodged pe­
tition for rehearing or rehearing en banc. It is
FURTHER ORDERED that appellant’s motion to
exceed page limit for the lodged petition for rehearing
or rehearing en banc is granted. It is

App. 25
FURTHER ORDERED that appellant’s expedited
motion for leave is granted and the Clerk shall file
the lodged amended petition for rehearing or rehear­
ing en banc. It is
FURTHER ORDERED by the merits division*
that the petition and amended petition for rehearing
are denied; and it appearing that no judge of this court
has called for a vote on the petition for rehearing en
banc. It is
FURTHER ORDERED that the petition for re­
hearing en banc is denied.
PER CURIAM
No. 18-CV-309
Copies to:
Honorable Brian F. Holeman
Director, Civil Division
Copies e-served to:
Rosanne Woodroof
J. Jonathan Schraub, Esquire
Madelaine Kramer, Esquire
pn

Additional material
from this filing is
available in the
Clerk's Office.

